<html>
<title> - NOMINATION OF HON. JOHN J. SULLIVAN FOR DEPUTY SECRETARY, U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 110-1136]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1136
 
                  NOMINATION OF HON. JOHN J. SULLIVAN
                         FOR DEPUTY SECRETARY,
                      U.S. DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
74-891                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2008...................................     1
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     1
Statement of Senator Stevens.....................................     2
    Prepared statement...........................................     2

                               Witnesses

Sullivan, Hon. John J., Nominee to be Deputy Secretary, U.S. 
  Department of Commerce.........................................     2
    Prepared statement...........................................     4
    Biographical information.....................................     5

                                Appendix

Response to written questions submitted by Hon. Jim DeMint to 
  Hon. John J. Sullivan..........................................    13


                  NOMINATION OF HON. JOHN J. SULLIVAN
                         FOR DEPUTY SECRETARY,
                      U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                        THURSDAY, MARCH 13, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m. in The 
Capitol, SC-6, Hon. Daniel K. Inouye, Chairman of the 
Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. As you know, this is an unusual time. We're 
having votes every 12 minutes.
    I'm so glad that when most Americans think of the 
Department of Commerce, they think of trade and business, but 
the nominee before us, Mr. John Sullivan, and the Members of 
the Committee know that it is much, much more than that and 
because of the time restrictions, without objection, my full 
statement will be part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I am certain that when most Americans think of the Department of 
Commerce they think of trade and business, but the nominee before us, 
Mr. John Sullivan, and the Members of the Committee know that it is so 
much more.
    The Department's mission includes conserving and managing our ocean 
resources, ensuring accuracy in standards and measurements, counting 
our citizens, providing economic opportunity, managing spectrum policy, 
and predicting the weather both for tomorrow and for the long term. The 
Commerce Department is even responsible, in part, for helping Americans 
keep their televisions functioning once the digital television 
transition is complete.
    We need strong leaders at the Department who are committed to all 
of the Department's missions. For example, the Nation's commerce will 
suffer if the Department, through the National Oceanic and Atmospheric 
Administration (NOAA), does not promote good stewardship of our 
environment and its resources.
    This session, the Committee and the Senate will be looking to act 
on many issues related to the Department of Commerce. If you are 
confirmed, Mr. Sullivan, we will need your help to enact legislation to 
promote travel and tourism to the United States and to understand and 
respond to the threat of global climate change. We will need your help 
to ensure that the digital television transition runs smoothly, that 
our system of Earth observing satellites remains viable, and that our 
shared vision to promote American competitiveness through science and 
innovation is implemented.
    We look forward to working with you, should you be confirmed.
    Mr. Sullivan, do you have any family members that you would like to 
introduce to the Committee?

    The Chairman. Please introduce your family.
    Mr. Sullivan. Thank you, Mr. Chairman. I first have to note 
that my wife and oldest son, Jack, were not able to join us 
today. They had a previously scheduled trip on spring break, 
but I'm joined by my daughter, Katie Sullivan and my son----
    The Chairman. Welcome.
    Mr. Sullivan.--Teddy Sullivan, and my in-laws, Graciela and 
Rueben Rodriguez.
    The Chairman. That's wonderful. Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. I'd like to put my statement in the record 
and welcome you, Mr. Sullivan. We're pleased that the Chairman 
has held this rather impromptu hearing for you.
    [Laughter.]
    Mr. Sullivan. Thank you, Senator Stevens.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Mr. Chairman, thank you for holding this afternoon's hearing. The 
jurisdiction of the Department of Commerce is extensive, ranging from 
enforcement of international trade agreements to improvement of the 
state of fisheries and the oceans to development of telecommunications 
and information policy issues. As Chief Operating Officer, the Deputy 
Secretary of the Department has many demanding responsibilities and it 
is crucial the individual chosen to fill this position be capable and 
knowledgeable about all aspects of the Department. Especially now, at a 
time when the Commerce Department is in the midst of executing many 
challenging initiatives.
    I look forward to hearing from Mr. Sullivan today and discussing 
his ideas for the Department and I congratulate him on his nomination.

    The Chairman. You don't mind if----
    Mr. Sullivan. Absolutely not. Thank you, Mr. Chairman.
    The Chairman. It's your show.

   STATEMENT OF HON. JOHN J. SULLIVAN, NOMINEE TO BE DEPUTY 
             SECRETARY, U.S. DEPARTMENT OF COMMERCE

    Mr. Sullivan. Thank you, Mr. Chairman and Mr. Vice 
Chairman. I'm honored to appear here before you today as the 
President's nominee to be the next Deputy Secretary of the 
Department of Commerce.
    I'm grateful and honored that the President has given me 
this opportunity to continue serving the American people and 
I'm deeply appreciative of the confidence and support shown to 
me by Secretary Gutierrez.
    I'd also like to thank the Committee and both you, Mr. 
Chairman, and you, Senator Stevens, and your staff for their 
courtesies that have been extended to me in the course of this 
nomination proceeding. I'm very grateful for that.
    Today, I'd like to briefly--I know you have time 
constraints--just briefly give you a sense of what I'd like to 
accomplish as Deputy Secretary of Commerce, if given that 
opportunity.
    Let me begin by stating my strong commitment to the core 
mission of the Department to serve the American people by 
helping to create the right conditions for economic growth and 
expanded opportunity.
    The Commerce Department addresses a wide range of important 
challenges each and every day. We encourage environmental 
stewardship. We promote innovation, foster entrepreneurship and 
enhance competitiveness. Our work takes place on a global 
basis, from marine fisheries and the National Weather Service 
to the Census and numerous scientific, environmental, 
technological and economic endeavors.
    The Department's Deputy Secretary effectively serves as the 
Department's Chief Operating Officer, overseeing its 38,000 
employees and $7.6 billion budget. One of the deputy's most 
important roles is to serve as a forceful advocate within the 
Administration for the Department's programs in the development 
of the President's budget. The Deputy Secretary also acts as 
the Secretary's primary advisor and surrogate.
    With the support of this Committee and the hardworking men 
and women of the Department, I'm confident that I can maintain 
the high standards set by my predecessors and support the 
commitment to excellence embodied by Secretary Gutierrez.
    I believe my experience, both in government and in the 
private sector, will help me in that endeavor. In two decades 
of law practice, I've had the privilege of serving in a wide 
variety of positions, as a law clerk to Judge John Minor Wisdom 
and to Supreme Court Justice David H. Souter, as counselor to 
the Assistant Attorney General in charge of the Office of Legal 
Counsel at the Justice Department, as a partner in the law firm 
of Mayer, Brown, as Deputy General Counsel to the Department of 
Defense, and in my current position as General Counsel of the 
Department.
    In these varied roles, I believe I have developed the 
skills and experience necessary to address the challenges and 
opportunities facing the Commerce Department. Yet I also 
recognize that I have much to learn about facets of the 
Department that I have not worked with on a regular basis.
    As I look forward to this continued education, I know that 
I will be well supported by the deep and talented staff of 
career employees and other professionals at the Department. I'm 
confident that with their support, I will be able to perform my 
duties with the skill and professionalism that President Bush, 
the Members of this Committee, Secretary Gutierrez and the 
public expect and deserve.
    If confirmed, I will work side by side with Secretary 
Gutierrez as he leads the Department's focus on economic growth 
and job creation, will promote the wise stewardship of our 
environment and our natural resources, will open foreign 
markets, work to level the playing field for American 
businesses, farmers and workers, will insist that our trading 
partners fully comply with their trade agreements, and we will 
foster technological innovation while defending intellectual 
property rights.
    We'll implement effective export controls, and we will 
oversee the collection of sound economic and demographic 
statistics.
    I look forward to the prospect of working with this 
Committee on these and other important issues.
    I'd like to conclude with a statement of my firm conviction 
that stewardship through public service is a special privilege 
and responsibility. If confirmed, I will commit my utmost 
energies, integrity and devotion to serving the President and 
the American people.
    Thank you again for the opportunity to appear before you 
today and for your consideration of my nomination. I'd be 
pleased to respond to any questions for me that you may have.
    [The prepared statement and biographical information of Mr. 
Sullivan follow:]

Prepared Statement of John J. Sullivan, Nominee to be Deputy Secretary, 
                      U.S. Department of Commerce
    Mr. Chairman, Mr. Vice Chairman, members of the Committee,

    I am honored to appear before you today as the President's nominee 
to be the next Deputy Secretary of the United States Department of 
Commerce. I am grateful and honored that the President has given me 
this opportunity to continue serving the American people, and I am 
deeply appreciative of the confidence and support shown to me by 
Secretary Gutierrez. I would also like to thank this Committee and its 
staff for the courtesies they have extended to me throughout this 
process.
    Today, I would like to give you a better sense of what I hope to 
accomplish as Deputy Secretary of Commerce--if given that opportunity.
    Let me begin by stating my strong commitment to the core mission of 
the Department, namely, to serve the American people by helping to 
create the right conditions for economic growth and expanded 
opportunity. The Commerce Department addresses a wide range of 
important challenges each and every day. We encourage environmental 
stewardship. We promote innovation. We foster entrepreneurship. And we 
enhance competitiveness. Our work takes place on a global basis--from 
marine fisheries and the National Weather Service to the Census and 
numerous scientific, environmental, technological, and economic 
endeavors.
    The Department's Deputy Secretary effectively serves as its Chief 
Operating Officer, overseeing its 38,000 employees and $7.6 billion 
budget. Indeed, one of the Deputy's most important roles is to serve as 
a forceful advocate within the Administration for the Department's 
programs in the development of the President's budget. The Deputy 
Secretary also acts as the Secretary's primary advisor and surrogate. 
With the support of this Committee, and the hardworking men and women 
of the Department, I am confident I can maintain the high standards set 
by my predecessors and support the commitment to excellence embodied by 
Secretary Gutierrez.
    If confirmed by the Senate, I would bring valuable experience and 
knowledge to the office of Deputy Secretary. For the past two and a 
half years, I have served as the Department's General Counsel--acting 
as the agency's chief legal officer and providing legal advice to the 
Secretary and senior officials as they conduct their vital work. 
Handling the myriad legislative, regulatory, and administrative issues 
faced daily in the Department--from management of marine fisheries to 
regulation of international trade--has given me a unique perspective 
into the needs and goals of the Department and its bureaus.
    In my two decades of law practice, I have had the privilege of 
serving in a wide variety of positions: as a law clerk to Judge John 
Minor Wisdom and to Supreme Court Justice David H. Souter; as Counselor 
to the Assistant Attorney General in charge of the Office of Legal 
Counsel at the Justice Department; as a partner in the international 
law firm now known as Mayer Brown; as Deputy General Counsel of the 
Department of Defense; and in my current position as General Counsel of 
the Department of Commerce.
    In these varied roles, I believe I have developed the skills and 
experience necessary to address the challenges and opportunities facing 
the Commerce Department. Yet I also recognize that I have much to learn 
about facets of the Department that I have not worked with on a regular 
basis. As I look forward to this continued education, I know that I 
will be well supported by the deep and talented staff of career 
employees and other professionals at the Department. I am confident 
that, with their support, I will perform my duties with the skill and 
professionalism that President Bush, the Members of this Committee, 
Secretary Gutierrez, and the public, expect and deserve.
    If confirmed, I will work side-by-side with Secretary Gutierrez as 
he leads the Department's focus on economic growth and job creation. We 
will promote the wise stewardship of our environment and our natural 
resources. We will open foreign markets. We will work to level the 
playing field for America's businesses, farmers, and workers. We will 
insist that our trading partners fully comply with our trade 
agreements. We will foster technological innovation. We will defend 
intellectual property rights. We will implement effective export 
controls. And we will oversee the collection of sound economic and 
demographic statistics. I look forward to the prospect of working with 
this Committee on these and other important issues.
    Permit me to conclude with my firm conviction that stewardship 
through public service is a special privilege and responsibility. If 
confirmed, I will commit my utmost energies, integrity, and devotion to 
serving the President and the American people. Thank you again for the 
opportunity to appear before you today, and for your consideration of 
my nomination.
    I would be pleased to respond to any questions that you may have 
for me.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (include any former names or nicknames used): John Joseph 
Sullivan.
    2. Position to which nominated: Deputy Secretary of Commerce.
    3. Date of Nomination: December 4, 2007.
    4. Address (list current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: General Counsel, United States Department of Commerce, 
        1401 Constitution Avenue, N.W., Room 5870, Washington, D.C. 
        20230.

    5. Date and Place of Birth: November 20, 1959; Boston, MA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Graciela Maria Rodriguez, Partner, King & Spalding, 
        1700 Pennsylvania Avenue, N.W., Washington, D.C. 20006-4706.

        Children: John Hugh Sullivan, 16; Katherine Ann Sullivan, 14; 
        Edward Albert Sullivan, 11.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Brown University, A.B. in History and Political Science, 1981.
        Columbia University School of Law, J.D., 1985.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        General Counsel, United States Department of Commerce (2005 to 
        present).

        Deputy General Counsel, United States Department of Defense 
        (2004-2005).

        Partner, Mayer, Brown, Rowe & Maw LLP (1997-2004).

        Associate, Mayer, Brown & Platt (1993-1996).

        General Counsel, Phil Gramm for President (1995).

        Deputy General Counsel, Bush-Quayle 1992 (1992).

        Counselor to the Assistant Attorney General, Office of Legal 
        Counsel, United States Department of Justice (1991-1992).

        Law Clerk, Associate Justice David H. Souter, Supreme Court of 
        the United States (1990-1991).

        Attorney-Adviser, Office of Legal Counsel, United States 
        Department of Justice (1990).

        Associate, Paul, Weiss, Rifkind, Wharton & Garrison (1987-
        1990).

        Law Clerk, Cravath, Swaine & Moore, New York, NY (1986-1987).

        Law Clerk, Judge John Minor Wisdom, United States Court of 
        Appeals for the Fifth Circuit (1985-1986).

        Summer Associate, Cravath, Swaine & Moore, New York, NY (1984, 
        1985)

        Summer Associate, Milbank, Tweed, Hadley & McCloy, New York, NY 
        (1983)

        Analyst, Dow Service, Inc., Boston, MA (1981-1982).

    9. Attach a copy of your resume. See attached (Appendix A).
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: Partner, 
Mayer, Brown, Rowe & Maw LLP, 1997-2004.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, New York Bar, 1987 to present.

        Member, D.C. Bar, 1993 to present.

        Member, Federalist Society, 1990 to present.

        Head Coach, Montgomery Youth Hockey Association, 1997-2004.

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, age, or 
        handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        General Counsel, United States Department of Commerce (2005 to 
        present).

        Deputy General Counsel, United States Department of Defense 
        (2004-2005).

        Both of these positions were the result of appointments, not 
        campaigns.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    See attached records of the FEC (Appendix B).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Awarded the Secretary of Defense's Medal for Exceptional Public 
        Service.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Federal Preemption: Two Renditions of Fundamental Theme,'' 
        Inside Litigation (Oct. 1998); ``Appeals to the Supreme 
        Court,'' Business and Commercial Litigation in Federal Courts 
        (West 1998); ``Supreme Court Bypasses Airbag Preemption Case,'' 
        Legal Opinion Letter, Washington Legal Foundation (1996); Note, 
        ``The Equal Access to Justice Act in the Federal Courts,'' 84 
        Colum. L. Rev. 1089 (1984).

        Speech at the 2007 Ambassador's IPR Roundtable: IPR Protection, 
        Beijing, China (Oct. 23, 2007).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    May 18, 2005--Nomination Hearing before the U.S. Senate Committee 
on Commerce, Science, and Transportation (nominated to be General 
Counsel of the United States Department of Commerce).
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    As General Counsel of the Department of Commerce, I have gained 
wide-ranging experience with the vast array of programmatic 
responsibilities carried out by the Department and its twelve operating 
units. As a result of my tenure at Commerce, I have developed a deep 
appreciation for the importance of the work performed by the 38,000 
public servants employed by the Department in ensuring the 
sustainability of ocean resources, protecting and restoring marine and 
coastal areas, studying the climate and weather, promoting economic 
growth and opportunity, expanding the Nation's scientific and technical 
capabilities, compiling and disseminating demographic and economic data 
essential to informed decision-making, and facilitating international 
trade. Both as General Counsel and a member of Secretary Gutierrez's 
Executive Management Team, I have a well-grounded understanding of the 
broad range of issues on which the Department works and the resources 
available to it in carrying out its mission.
    I gratefully accepted the opportunity to serve Commerce as its 
General Counsel two and one-half years ago out of a belief that public 
service is a special privilege and responsibility. If confirmed by the 
Senate as Deputy Secretary, I look forward to enhancing my ability to 
influence Commerce's efforts to fulfill its mission and to make sure 
that the American public receives the best services possible.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Deputy Secretary, I will continue to maintain the 
close working relationships with bureau managers that were established 
by my predecessors. As the Department's chief operating officer, I will 
exercise the oversight needed to ensure that Commerce programs are 
effective and our organizational goals and objectives are achieved. In 
addition to routine day-to-day interaction with bureau leadership, we 
will continue to conduct weekly Executive Management Team meetings 
under the direction of Secretary Gutierrez, and to hold formal program 
performance reviews throughout the year.
    Through close scrutiny of program operations and by holding 
managers at all levels responsible for program results, the Department 
will continue to strengthen all facets of its operations. I am 
committed to maintaining the Department's success as a performance-
oriented organization, and to further implementing management reforms 
such as those established under the President's Management Agenda. I 
will also be an aggressive advocate with OMB and the Congress to ensure 
that the Department and its bureaus have the financial resources to 
accomplish their mission.
    In addition, I have extensive experience in managing a large 
organization. During my time as General Counsel, I have been 
responsible for my office's annual budget of more than $30 million and 
have overseen the work of over 400 lawyers in the 14 different legal 
offices that provide advice on myriad legal issues and policy 
considerations affecting the Department and its diverse programs. I 
directly supervise the offices of three Assistant General Counsels and 
seven Chief Counsels, and provide legal and policy direction for four 
additional legal offices that receive their funding and personnel 
allocations from their bureaus.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Managing the development and acquisition of satellites. The 
National Oceanic and Atmospheric Administration (NOAA) is in the 
process of acquiring its next-generation geostationary (GOES-R) and 
Polar (NPOESS) satellite systems, in collaboration with the National 
Aeronautics and Space Administration (NASA) and the Air Force. It is 
entering the main procurement phase for GOES-R, and has restructured 
NPOESS following the recertification required under Nunn-McCurdy due to 
significant cost overruns and schedule delays. Because the accuracy of 
both routine and severe weather forecasts depends on NOAA's satellites, 
they are critically important to public safety and defense operations. 
Acquiring satellites is a lengthy process involving both cutting-edge 
technical issues and large capital expenditures, making this one of the 
Department's most important challenges.
    Assuring the overall success and accuracy of the 2010 Census. 
Managing the people, the technology, the testing, and the budgets 
involved with the 2010 census is a critical priority. Every American 
community has a stake in the outcome of the census, and its success is 
integrally linked to the public's faith in the Census Bureau's ability 
to secure the information that is collected. The Department is 
committed to fulfilling this Constitutional responsibility by 
protecting the data that is gathered, implementing the most effective 
technologies, and improving the coverage and efficiency of the upcoming 
Decennial Census.
    Facilitating the Nation's transition from analog to digital 
television technology. The National Telecommunications and Information 
Administration (NTIA) is playing a crucial role in the Nation's move 
from analog to digital television. Under the Digital Television 
Transition and Public Safety Act of 2005, NTIA is establishing and 
managing several new programs. Two of these--a grant program for public 
safety interoperable communications and a coupon program for television 
converter boxes--each have $1 billion budgets, although the latter 
could increase to $1.5 billion. As a result of the nationwide scope and 
impact of these programs, this is a critical initiative and ensuring 
the success of these efforts is one of the Department's highest 
priorities.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I continue to maintain an interest in a 401(k) savings plan 
established by my former employer (Mayer, Brown, Rowe & Maw LLP). As 
disclosed in my attached financial disclosure form (See attached SF-278 
(Appendix C)<SUP>*</SUP>), my account is vested in diversified mutual 
funds and no contributions to this account have been made (or will be) 
since the termination of my employment in February 2004.
---------------------------------------------------------------------------
    \*\ This document is retained in the Committee files and is also 
available from the U.S. Office of Government Ethics.
---------------------------------------------------------------------------
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: See attached ethics 
agreement (Appendix D).
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I represented, on a pro bono basis, the Special Operations Warrior 
Foundation, which sought a Federal charter from Congress.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: See attached ethics agreement (Appendix D).

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                           Appendix A--Resume
                            JOHN J. SULLIVAN

Employment
    United States Department of Commerce, Washington, D.C., General 
Counsel, July 2005 to present.

    United States Department of Defense, Washington, D.C., Deputy 
General Counsel, February 2004 to June 2005.

    Mayer, Brown, Rowe & Maw LLP, Washington, D.C., Partner, January 
1997 to February 2004; Associate, February 1993 to December 1996.

    Bush-Quayle 1992, Washington, D.C., Deputy General Counsel, January 
1992 to December 1992.

    United States Department of Justice, Washington, D.C., Counselor to 
the Assistant Attorney General, Office of Legal Counsel, September 1991 
to January 1992; Attorney-Adviser, Office of Legal Counsel, March 1990 
to October 1990.

    Paul, Weiss, Rifkind, Wharton & Garrison, New York, NY, Associate, 
October 1987 to March 1990.

    Cravath, Swaine & Moore, New York, NY, Law Clerk, September 1986 to 
September 1987.
Clerkships
    Associate Justice David H. Souter, Supreme Court of the United 
States, Law Clerk, October Term 1990.

    Judge John Minor Wisdom, United States Court of Appeals for the 
Fifth Circuit, Law Clerk, June 1985 to August 1986.
Education
    Columbia University School of Law, New York, NY

        J.D., May 1985. Book Reviews Editor, Columbia Law Review; 
        Harlan Fiske Stone Scholar.

    Brown University, Providence, RI

        A.B., History and Political Science, June 1981.
                               Appendix B
     FEC Individual Contribution Search Results (December 10, 2007)
              Presented by the Federal Election Commission
Individual Contributions Arranged By Type, Giver, Then Recipient
Contributions to Political Committees
    Sullivan, John; Bethesda, MD 20817; Mayer Brown Rowe & Maw
        Floyd, Charles via Floyd for Congress Committee; 12/15/2003; 
        $500.00

    Sullivan, John; Bethesda, MD 20817; Mayer Brown Rowe & Maw/Attorney
        Ryan, Jack via Jack Ryan for U.S. Senate; 02/06/2004; $500.00

    Sullivan, John J.; Bethesda, MD 20817; Mayer Brown & Platt
        Bush, George W. via Bush for President Inc.; 05/13/1999; 
        $1,000.00

    Sullivan, John J. Mr.; Bethesda, MD 20817; Department of Commerce/
Attorney
        Republican National Committee; 12/13/2005; $550.00

    Sullivan, John J. Mr.; Bethesda, MD 20817; Mayer Brown Rowe & Maw/
Attorney
        Bush, George W. via Bush-Cheney 2004 (Primary) Inc. 05/29/2003; 
        $2,000.00

        Bush, George W. via Bush-Cheney 2004 Compliance Committee Inc.; 
        08/18/2004; $2,000.00

    Sullivan, John J. Mr.; Bethesda, MD 20817; Mayer Brown Rowe & Maw/
Attorney
        Republican National Committee; 12/26/2003; $500.00
    Total Contributions: $7,050.00
                                 ______
                                 
     General Counsel of the of United States Department of 
                                                   Commerce
                                   Washington, DC, November 8, 2007




Memorandum For:                    Barbara S. Fredericks
                                   Assistant General Counsel for
                                    Administration
From:                              John J. Sullivan
Subject:                           Ethics Agreement


    The purpose of this memorandum is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am appointed to the position of Deputy Secretary of Commerce.
    As required by 18 U.S.C.  208(a), I will not participate 
personally and substantially in my official capacity in any particular 
matter that has a direct and predictable effect on my financial 
interests or those of any other person whose interests are imputed to 
me, unless I first obtain a written conflict of interest waiver, 
pursuant to section 208(b)(1), or qualify for a regulatory exemption, 
pursuant to section 208(b)(2). I understand that the interests of the 
following persons are imputed to me: my spouse, minor children, or any 
general partner; any organization in which I serve as an officer, 
director, trustee, general partner, or employee; and any person or 
organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Specifically, I will not personally and substantially participate 
in any particular matter that will have a direct and predictable effect 
on my wife's law firm, King & Spalding, unless I first obtain a written 
waiver or am permitted to participate due to a regulatory exemption. 
Furthermore, pursuant to 5 C.F.R.  2635.502, I will not participate in 
any particular matter involving specific parties in which any client of 
my spouse is a party or represents a party, unless I am authorized to 
participate under 5 C.F.R.  2635.502(d).
    In addition, I will not participate personally and substantially in 
any particular matter that will have a direct and predictable effect on 
the ability or willingness of the following bond issuers to pay their 
debt obligation to me or on the market value of the bond, unless such 
participation is permitted by regulatory exemption or written conflict 
of interest waiver:

                Cecil County, Maryland
                Maryland Department of Transportation
                Montgomery County, Maryland
                Prince George's County, Maryland, and
                Washington Suburban Sanitary District.

    Within 90 days of my confirmation, I will issue a statement 
memorializing these recusals.
    With respect to my financial interests from which disqualification 
is not presently required because of the applicability of a regulatory 
exemption, should a financial interest no longer qualify for an 
exemption, I will immediately disqualify myself from participating in 
matters affecting the interest, unless it is covered by another 
exemption, and will seek advice from a Department of Commerce ethics 
official regarding other ways to avoid a conflict of interest.
    In the event my participation in a matter from which I am 
disqualified is important to the Government, I will seek advice from an 
ethics official on means to resolve a conflict of interest, such as by 
divestiture or by obtaining a conflict of interest waiver.

cc: Secretary Carlos M. Gutierrez

    The Chairman. Thank you very much, Mr. Sullivan. I just 
have a question that NOAA is given a little high priority 
because Alaska has the longest coastline, Hawaii is surrounded 
by the ocean, NOAA is very important.
    I have one concern, the transition from analog to digital, 
and I hope you will take personal care of that.
    Any questions?
    Senator Stevens. No, I don't have any questions either. I 
congratulate you. I, too, was a general counsel for a major 
department. I think you have the background for this job and 
look forward to working with you.
    Mr. Sullivan. Thank you very much.
    The Chairman. Any further statement?
    Mr. Sullivan. Nothing further, other than to say, Mr. 
Chairman, thank you.
    The Chairman. Well, in 2 hours, we'll be voting on you.
    Mr. Sullivan. Thank you.
    The Chairman. This is a little--I suppose this is the first 
time we've done this for you.
    Mr. Sullivan. I appreciate that, Mr. Chairman.
    Senator Stevens. We're happy to do it for you.
    The Chairman. So, with that, thank you very much.
    Mr. Sullivan. Thank you.
    The Chairman. The hearing's adjourned.
    [Whereupon, at 2:15 p.m., the hearing was adjourned.]


                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Jim DeMint to 
                         Hon. John J. Sullivan

    Question 1. In your current position as General Counsel, you are 
responsible for advising the Secretary and others in the Department on 
how to comply with various legal obligations--whether they originate 
from Congress or from international agreements and bodies to which 
Congress previously assented. How do you view rulings by the Appellate 
Body of the World Trade Organization (``WTO'') in terms of the United 
States' responsibility to comply with them? Do you believe the U.S. 
ability to demand compliance by other nations with WTO rulings is 
compromised when the U.S. fails to fully and timely comply itself?
    Answer. The WTO Agreements are important international agreements 
that Congress has implemented through precise statutory language. In my 
role as General Counsel, I am necessarily mindful, first and foremost, 
of the requirements of U.S. law and the statutory provisions adopted by 
Congress regarding the relationship between U.S. law and 
recommendations and rulings adopted by the Dispute Settlement Body 
(``DSB'') of the WTO. With respect to DSB recommendations and rulings 
related to decisions of the Department of Commerce in antidumping and 
countervailing duty proceedings, these statutory provisions require 
consultations between the U.S. Trade Representative, the relevant 
agency, and relevant Congressional Committees prior to implementing any 
DSB recommendation or ruling. Thus, my view of any particular ruling is 
based on the merits of the ruling itself and informed by the 
congressionally mandated consultation process.
    The dispute settlement procedures incorporated into the WTO 
Agreements represent a significant advance in international dispute 
resolution. The procedures provide for consideration of disputes by 
panels of experts and allow for appeal of panel reports to the 
permanent Appellate Body set up by the DSB. Reports of the panels and 
the Appellate Body are adopted by the DSB within strict timelines and 
can only be rejected by consensus vote. They provide an important means 
for resolving trade disputes among WTO Members and consequences for the 
failure to comply with WTO obligations. The United States has fully 
complied with WTO rulings in the vast majority of cases, and we will 
continue to seek compliance by our trading partners with their WTO 
obligations. As you know, however, the United States has expressed 
concern with respect to the reasoning in several recent Appellate Body 
reports reviewing panel rulings regarding the issue of so-called 
``zeroing.'' The United States has noted both that the reports impose 
obligations to which WTO Members did not agree in the Uruguay Round of 
negotiations and that multiple panels (currently up to four) have 
interpreted the Antidumping Agreement differently than the Appellate 
Body with respect to this issue.

    Question 2. I am concerned by DOC's failing to comply with the WTO 
Appellate Body's ruling in United States--Measures Relating to Zeroing 
and Sunset Reviews (``Zeroing'') (WT/DS322). DOC previously committed 
itself to comply with that ruling by December 24, 2007. That date has 
come and gone and now Japan has taken steps toward imposing $248 
million in retaliatory tariffs on U.S. exports for lack of compliance 
with the ruling. DOC's failure to implement the ruling, which is 
harming a number of manufacturers all over the country, seems to fly in 
the face of U.S. legal obligations and is contrary to the President's 
free trade agenda. Why has DOC not fully implemented the ruling? What 
steps is DOC taking to avoid retaliatory tariffs?
    Answer. While we place great importance on respecting our WTO 
obligations, the United States continues to be deeply troubled by the 
Appellate Body report's evaluation of the issue of ``zeroing.'' The 
report's reasoning presents serious problems both from the perspective 
of treaty interpretation and from the practical perspective of WTO 
Members endeavoring to administer their antidumping regimes 
consistently with their WTO obligations. The United States took steps 
to come into compliance with our WTO obligations following the release 
of that report, but Japan remains dissatisfied. In January, Japan 
requested retaliation authority from the WTO and we have objected, 
resulting in a referral of their request to arbitration. Japan 
subsequently informed the DSB that, because there appears to be broad 
disagreement between Japan and the United States as to the issues of 
compliance in this dispute, Japan intends to initiate compliance 
proceedings under Article 21.5 of the Dispute Settlement Understanding, 
and to suspend the arbitration during the compliance proceedings.
    We have continued to consult with the relevant Congressional 
committees regarding our efforts on zeroing. In addition, we have 
pressed hard in Geneva to get others to recognize that these rulings 
have adverse implications for their antidumping systems, specifically, 
and their ability to know and act consistently with all of their WTO 
obligations, more generally. Moreover, in accordance with the general 
negotiating objectives set forth in U.S. Trade Promotion Authority to 
``preserve the ability of the United States to enforce rigorously its 
trade laws, including the antidumping . . . laws'', we have proposed 
that the Antidumping Agreement be revised to make clear that there is 
no requirement to provide offsets for non-dumped sales when fashioning 
and applying a remedy for injurious dumping.
    This issue remains unsettled within the WTO. In our dispute with 
Mexico at the WTO concerning this practice, the panel issued its 
decision in December. This was the third panel to find that the 
existing Antidumping Agreement does not prohibit zeroing in contexts 
such as administrative reviews, directly disagreeing with the Appellate 
Body's analysis of the text. Moreover, in November, the Chair of the 
Rules Negotiating Group issued a draft text that would make explicit 
the right of Members to use this methodology in administrative reviews, 
among other contexts.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
